DOE/IG-0525




         AUDIT
        REPORT                       HAZARDOUS MATERIALS
                                  MANAGEMENT AND EMERGENCY
                                RESPONSE TRAINING AND EDUCATION
                                  CENTER’S MARKETING PROGRAM




                                             SEPTEMBER 2001




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                     U. S. DEPARTMENT OF ENERGY
                           Washington, DC 20585

                             September 24, 2001



MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Hazardous Materials
                          Management and Emergency Response Training and Education
                          Center's Marketing Program"


BACKGROUND

The Fiscal Year (FY) 1994 National Defense Authorization Act authorized the establishment of
Hazardous Materials Management and Emergency Response (HAMMER) Training and
Education Centers at Department of Energy sites to provide training for handling hazardous
materials. The legislation envisioned HAMMER training centers as user facilities for the
Department, other federal agencies, and regional response personnel. The only center built to
date is located at the Hanford Site in Richland, Washington. This center, opened in September
1997, has an average annual operating budget of $5.5 million.

Fluor Hanford, Inc. (Fluor), which operates HAMMER under a contract with the Department's
Richland Operations Office (Richland), maintains a small, in-house staff that is responsible for
day-to-day operations of the center. Industry experts and other external sources provide the
actual training. Since it was anticipated that Hanford employees would use only 50 percent of
the training center's capacity, Fluor established a marketing department to attract non-Hanford
customers. Through this mechanism, the Department and Fluor hoped to generate enough
revenue to make the training center self-sustaining. The objective of the audit was to determine
whether the marketing program for HAMMER has been effective.

RESULTS OF AUDIT

The audit disclosed that HAMMER's marketing program has not been effective. The goal of
making the training center self-sustaining has not been achieved. In fact, although Fluor was
able to attract non-Hanford customers to HAMMER, the revenues generated from those
customers were far less than the costs incurred in marketing the training center. Between FYs
1998 and 2001, the Department spent about $3.4 million more on the marketing campaign than
associated HAMMER revenues. Also, during this timeframe, non-Hanford customers never
used over 5 percent of HAMMER's training capacity even though there was over 65 percent of
the total training capacity available. Although in the report we cite several reasons for the
relatively light use of HAMMER, it was clear that, because of its remote location, HAMMER
was not an attractive venue for hazardous materials training for non-Hanford users. We
concluded that the Department and Richland should reduce the scope of HAMMER's marketing
program to a more realistic level given its track record in attracting non-Hanford customers.
We estimate that such action could release about $800,000 per year in funds for alternative
purposes.

MANAGEMENT REACTION

Management concurred with the finding and recommendation. Fluor has reorganized the
HAMMER staff, refocused the marketing effort, and reduced the level of effort to $200,000.
The new organizational structure of HAMMER now dedicates more effort to working with the
various Hanford contractors, including the Office of River Protection's contractors, and will
minimize the effort directed to non-Hanford users. Richland accepted these changes and
developed performance objectives and measures to hold the contractor accountable for results
based on the new marketing effort.

Attachment

cc:   Deputy Secretary
      Under Secretary for Energy, Science and Environment
      Manager, Richland Operations Office
HAZARDOUS MATERIALS MANAGEMENT AND EMERGENCY
RESPONSE TRAINING AND EDUCATION CENTER'S MARKETING
PROGRAM

TABLE OF
CONTENTS




                Overview

                Introduction and Objective ............................................... 1


                Conclusions and Observations ........................................ 1


                HAMMER Marketing Program Not Effective


                Details of Finding ............................................................ 2


                Recommendation and Comments ................................... 4


                Appendix


                Scope and Methodology.................................................. 6
Overview
INTRODUCTION AND   The National Defense Authorization Act for Fiscal Year (FY) 1994
OBJECTIVE          authorized the establishment of Hazardous Materials Management and
                   Emergency Response (HAMMER) Training and Education Centers at
                   Department of Energy (DOE) sites. The HAMMER training centers
                   were to assist DOE in providing hazardous materials and hazardous
                   materials emergency response training. The enabling legislation set up
                   HAMMER training centers as user facilities for DOE, other federal
                   agencies, and regional response personnel. So far, the only center built
                   is located at the Hanford Site in Richland, Washington. HAMMER
                   opened in September 1997 and has an average annual operating budget
                   of $5.5 million.

                   Fluor Hanford, Inc. (Fluor) has contracted with DOE's Richland
                   Operations Office (Richland) to operate HAMMER. The HAMMER
                   training center maintains a small in-house staff that is responsible for its
                   day-to-day operations; however, industry experts and others provide the
                   training. Since it was anticipated that Hanford employees would use
                   only 50 percent of the training center's capacity, Fluor established a
                   marketing department to attract non-Hanford customers. Fluor hoped
                   to generate enough revenue to allow the training center to be self-
                   sustaining. The objective of the audit was to determine if the marketing
                   program for HAMMER has been effective.


CONCLUSIONS AND    HAMMER's marketing program has not been effective. Although
OBSERVATIONS       Fluor was able to attract external customers, the revenues generated
                   from those customers were far less than the costs incurred in marketing
                   the training center. For example, during FYs 1998 to 2001 the
                   marketing program spent about $3.4 million more than HAMMER
                   received in revenues. During the first four years of operation, non-
                   Hanford customers have never used over 5 percent of HAMMER's
                   training capacity even though there was over 65 percent of the total
                   training capacity available. The reason the marketing program has not
                   been successful is that HAMMER is not attractive to external users.
                   HAMMER does not have its own trainers and is not physically located
                   in a readily accessible area. We estimate that Richland could better use
                   approximately $800,000 annually if it reduced the marketing program
                   to a reasonable level to support HAMMER's mission.

                   This audit identified issues that management should consider when
                   preparing its year-end assurance memorandum on internal controls.


                                                     ______(Signed)_________
                                                     Office of Inspector General

Page 1                                                  Introduction and Objective/
                                                        Conclusions and Observations
Hammer Marketing Program Not Effective
Non-Hanford Revenues    HAMMER's marketing program was not effective. Marketing expenses
Less Than Anticipated   exceeded $4 million in HAMMER's first four years of operation;
                        however, the revenues generated amounted to only $627,000. Not only
                        did expenses exceed revenues, the revenues generated were much less
                        than anticipated in Fluor's FY 1998 Business Plan. The Plan showed
                        that Fluor anticipated receiving $3.45 million during this four-year
                        period. Further, although revenues increased in the second and third
                        year, revenues actually declined in the fourth year. The history of the
                        program from FY 98 to FY 01 is depicted in the following chart.

                                             Expenses Versus Revenues

                                          Marketing
                           Year            Expense            Revenues          Growth
                          FY-1998         $ 791,000            $ 62,000         1st Year
                          FY-1999          1,582,000            162,000       +$100,000
                          FY-2000            952,000            203,000        + 41,000
                          FY-2001            709,000            200,000          - 3,000
                           Total          $4,034,000          $627,000


                        The chart also illustrates that marketing expenses exceeded revenues
                        generated from selling excess training capacity at HAMMER. The
                        monies generated, in fact, did not cover marketing expenses let alone
                        the annual operating expenses of the entire facility.

                        Furthermore, Hanford and non-Hanford customers alike have used only
                        about 35 percent of the available training capacity at HAMMER. The
                        annual training capacity usage is displayed below.

                                                       Capacity

                            Year       Hanford Use       Non-Hanford Use        Total Use
                           FY-1998     Not Available      Not Available        Not Available
                           FY-1999         27.1%              3.2%                30.3%
                           FY-2000         30.3%              4.9%                35.2%
                           FY-2001         31.7%              4.8%                36.5%


                        So far, approximately 65 percent of Hammer's available training
                        capacity has been unused.




Page 2                                                                    Details of Finding
                    Richland concurred that the marketing program, as it was configured,
                    was not effective. Management, however, believed that a reduced level
                    of marketing effort was needed to ensure an effective use of the facility
                    for both non-Hanford and Hanford users.

Financial           Based on the assumption that Hanford employees would use only 50
Independence        percent of the HAMMER's training capacity, Richland and Fluor
                    mutually agreed that the remaining capacity should be marketed to
                    others and, through that marketing effort, Fluor would strive to make
                    HAMMER financially independent. This seemed logical because
                    management anticipated that Hanford employees training at HAMMER
                    would decrease as the work force declined. In line with this, Richland
                    gave Fluor a goal to increase HAMMER revenues and cost offsets by
                    25 percent for FY 2000 but did not assign any monetary rewards for
                    success or penalties for failure.

                    Richland stated that it did not include a goal in FY 2001 to increase
                    revenue from non-Hanford users because the new Richland
                    management did not believe this would be productive based on the
                    results from previous years. A goal, however, was established to
                    develop a business plan that included a market analysis. The new
                    management team believed that Fluor needed to better define the
                    market and customer base to assure themselves there was a market for
                    the HAMMER props before expending more effort in a manner similar
                    to that of previous years.


Factors Affecting   The success of the marketing program for HAMMER has been affected
Marketing Program   by numerous factors. A 1998 independent market analysis concluded
                    that HAMMER was entering a "mature" market and would have
                    significant competition from similar facilities. According to the
                    analysis, three key obstacles could prevent Fluor from achieving a
                    successful marketing program.

                       •   HAMMER as a user facility with no trainers was highly
                           unusual, therefore, unattractive to non-Hanford customers.
                       •   HAMMER's location required non-Hanford customers to pay
                           employee travel and per diem expenses.
                       •   A majority of potential customers were not able to send groups
                           of employees to HAMMER because of staffing and/or monetary
                           constraints.




Page 3                                                                 Details of Finding
Continued Marketing   Since HAMMER began marketing to non-Hanford customers in its
Expenses              attempt to become financially independent, the marketing program has
                      cost Richland $3.4 million more than it received in revenues. Based on
                      the difference of revenues received versus expenses incurred over the
                      past four years, we estimate that Richland could better use
                      approximately $800,000 annually if it reduced HAMMER's marketing
                      program to a reasonable level to support the HAMMER mission.

RECOMMENDATION        We recommend that the Manager, Richland Operations Office reduce
                      HAMMER's marketing program to a reasonable level to support its
                      mission.


MANAGEMENT            Management concurred with the recommendation. Fluor has
COMMENTS              reorganized the HAMMER staff and significantly reduced and
                      refocused the marketing program. The new organizational structure of
                      HAMMER dedicates more effort to working with the various Hanford
                      contractors, including the Office of River Protection's contractors, and
                      to minimize the effort directed to utilize excess capacity for non-
                      Hanford users. Fluor has reduced the offsite marketing effort to
                      approximately $200,000 per year. Richland stated that the long-term
                      goal is to allow HAMMER to be part of a training industry in the Tri-
                      Cities, but it also recognized that this takes time and cannot be achieved
                      as long as Hanford has a significant need for the facility. Richland has
                      accepted these changes and has developed performance objectives and
                      measures to hold the contractor accountable for results based on the
                      new marketing effort.

                      Management stated that as the concept for HAMMER developed and
                      became a reality, the shared vision between Richland and Fluor was
                      that there would be excess capacity that would be made available to
                      other federal and state agencies and the emergency response community
                      in general. The concept that HAMMER could become self-sustaining
                      or financially independent was also a shared vision between Richland
                      and Fluor. Richland, however, did not agree that revenues alone
                      represent the benefit of HAMMER. Management asserted that more
                      benefits were derived from the marketing program than the actual
                      marketing revenue generated. For example, management stated that
                      the program generated general and administrative as well as shared
                      services expenses during the four years that created additional benefit to
                      Hanford in the amount of $2,096,000. Management also stated that the
                      costs identified as "marketing" in the report were inflated because they
                      included support to other Hanford activities. Finally, management said
                      that HAMMER was not operated under the assumption that Hanford
                      would utilize only 50 percent of the facility.

Page 4                                                Recommendation and Comments
AUDITOR COMMENTS   Management's comments are responsive to the recommendation.

                   Richland's assertion that more benefits were derived from the marketing
                   program than the actual marketing revenue generated was not
                   substantiated during the audit. The $2,096,000 was for overhead
                   expenses that would have been allocated to other Hanford activities if
                   HAMMER was not there. With respect to the "inflated" marketing
                   costs, we found no evidence that these costs supported other activities.
                   Finally, the 50 percent utilization assumption was established in the FY
                   1998 Fluor Business Plan.




Page 5                                            Recommendations and Comments
Appendix 1
SCOPE         The audit was performed from January 8, 2001 through July 25, 2001,
              at Richland and Fluor. The scope included the activities of
              HAMMER's marketing program for FYs 1998 to 2001.


METHODOLOGY   To accomplish the audit objective, we:

                 •   Interviewed Richland and HAMMER contractor management;
                 •   Reviewed applicable Federal laws, regulations, DOE Orders,
                     and internal policies and procedures;
                 •   Reviewed Government Performance and Results Act of 1993 to
                     determine if performance measures were established;
                 •   Reviewed 1998 Fluor Business Plan;
                 •   Reviewed Integrated FY 2000 Marketing Plan;
                 •   Reviewed HAMMER budgets for FYs 1998 to 2001;
                 •   Reviewed 1998 Independent Market Analysis;
                 •   Evaluated HAMMER facility training capacity and compared it
                     to actual;
                 •   Toured the HAMMER facility and observed training props;
                 •   Analyzed HAMMER's potential for non-Hanford training; and,
                 •   Compared marketing program budgeted expenses and revenues
                     to actual.

              We conducted the audit according to generally accepted Government
              auditing standards for performance audits and included tests of internal
              controls and compliance with laws and regulations to the extent
              necessary to satisfy the audit objective. Internal controls reviewed
              included DOE and contractor policies and procedures and Federal
              regulations related to management and operation of the HAMMER
              facility. We assessed the significant internal controls and performance
              measures established under the Government Performance and Results
              Act of 1993 related to HAMMER's management and operations.
              Richland did not include any performance goals or performance fees for
              the operation of HAMMER in its contract with Fluor. Because we
              limited our review, it would not necessarily have disclosed all internal
              control deficiencies that may have existed at the time of our audit. We
              did not conduct a reliability assessment of computer-processed data
              because only a very limited amount of such data was used during the
              audit. We held an exit conference with Richland's Deputy Associate
              Manager for Science and Technology on August 29, 2001.




Page 6                                                   Scope and Methodology
                                                                     Report No.: DOE/IG-0525


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
